                                           AAAAAAAAAAAAAAAAA




              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Internal Controls Over Computer
Property at the Department’s
Counterintelligence Directorate




DOE/IG-0762                                  March 2007
INTERNAL CONTROLS OVER COMPUTER PROPERTY AT
THE DEPARTMENT’S COUNTERINTELLIGENCE
DIRECTORATE




TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective            1

              Observations and Conclusions          2


              DETAILS OF FINDINGS

              Property Not Located                  3

              Property Not in Inventory             4

              Expired Loan Documentation            5

              Computers Not Properly Labeled        5


              RECOMMENDATIONS                       5


              MANAGEMENT COMMENTS                   6


              INSPECTOR COMMENTS                    6


              APPENDICES

              A. Scope and Methodology              7

              B. Prior Sensitive Property Reports   8

              C. Management Comments                9
Overview

INTRODUCTION    The Office of Intelligence and Counterintelligence conducts
AND OBJECTIVE   technical analyses of foreign intelligence for the Department of
                Energy (DOE), including the National Nuclear Security
                Administration, and the United States Intelligence Community.
                The Counterintelligence Directorate (CN), which is part of the
                Office of Intelligence and Counterintelligence, is responsible for
                protecting DOE information against espionage or other intelligence
                activities by foreign entities. In support of this mission, CN
                procures and maintains computer processing equipment such as
                desktop computers, laptop computers, and computer servers. DOE
                considers computer property to be “sensitive property,” which is
                required to have specific controls in place. The objective of this
                inspection was to determine the adequacy of internal controls over
                computer property maintained by the CN Headquarters program
                office.

                The Office of Inspector General (OIG) has issued several reports
                relating to accountability and internal controls over sensitive
                property. These reports are listed in Appendix B. In March 2006,
                we issued a report entitled “Internal Controls Over Sensitive
                Property in the Office of Intelligence,” DOE/IG-0722. Officials
                with the Office of Intelligence informed us that they had improved
                their property accountability system subsequent to our review. At
                the time of that review, the Office of Intelligence was separate
                from what was then called the Office of Counterintelligence. In
                March 2006, the two offices were consolidated into the Office of
                Intelligence and Counterintelligence. We have been informed that
                CN’s sensitive property will be consolidated into the Office of
                Intelligence and Counterintelligence’s property accountability
                system in the near future.




Page 1                       Internal Controls Over Computer Property at the
                                 Department’s Counterintelligence Directorate
OBSERVATIONS AND   Internal controls over classified and unclassified computer
CONCLUSIONS        property at CN were inadequate. Specifically, CN could not
                   locate 20 desktop computers listed on its property inventory that
                   either processed or may have processed classified information. We
                   identified control weaknesses that further undermined confidence
                   in CN’s ability to assure that its computers and the information
                   they contain were appropriately controlled; were adequately
                   safeguarded from loss and theft; and, were controlled in
                   accordance with existing security requirements.

                   We further noted that:

                      •   Fifty-seven computers were not included on CN’s property
                          inventory, as required by DOE’s Property Management
                          Standards;

                      •   CN had expired loan agreements for 96 Headquarters
                          computers that were located at CN field sites; and,

                      •   Labels indicating the classification level of individual
                          computers were not affixed to 74 CN computers, as
                          required.

                   Concerns about the complex-wide system of computer controls and
                   accountability have plagued the Department for a number of years.
                   As we found in several recent OIG reviews, strict property
                   procedures need to be consistently applied to classified and
                   unclassified computers and a robust program of review and
                   evaluation needs to be in place to assure that all computer
                   resources are accounted for and controlled. It was apparent that
                   CN did not have procedures in place to achieve this objective.
                   Considering the sensitivity of the data regularly processed in CN,
                   the shortcomings identified during our review were of major
                   concern.




Page 2                                              Observations and Conclusions
Details of Findings

PROPERTY              We found that CN could not locate 20 desktop computers listed on
NOT LOCATED           its property inventory that either processed or may have
                      processed classified information.

                      During our initial inventory of 618 computers assigned to CN
                      Headquarters, CN was unable to locate 241 computers.
                      Subsequently, CN located all but 20 of these items. CN indicated
                      that 14 of these 20 computers processed classified information at
                      the Secret level and the remaining 6 could have processed
                      classified information. CN concluded it could not find the 20
                      computers or find appropriate documents that addressed their
                      ultimate disposition.

                      A “Retirement Work Order” (RWO) was used to remove lost,
                      stolen, or damaged items from an office’s inventory. Following
                      inquiries by the OIG, CN submitted RWOs for these 20 computers
                      to the DOE Office of Management, which maintains the database
                      of CN sensitive property at Headquarters. The RWOs for all 20
                      items indicated that CN believed that these items were excessed at
                      some point in time. For example, there was evidence that at least 2
                      items were possibly excessed in 2002, although CN did not have
                      confirmatory documentation regarding the disposition of these or
                      any of the 20 computers.

                      We also noted an anomaly with the RWOs. CN listed one computer
                      on a January 11, 2007, RWO as being excessed at a CN field
                      location, despite the fact that the OIG located the computer in
                      question at CN Headquarters in late December 2006. Once notified
                      that the OIG had previously located this computer, CN conducted a
                      search for the unit and located it in late January 2007. On
                      January 30, 2007, CN informed the Office of Management it had
                      “erroneously” listed this computer on the recent RWO document.
                      We learned that the computer was placed back into CN’s inventory.

                      DOE Manual 470.4-1, “Safeguards and Security Program Planning
                      and Management,” specifies that any suspected or confirmed loss
                      of classified matter by any “medium, method, or action” be
                      reported as a security incident. Additionally, the DOE
                      Headquarters Personal Property and Supply Management
                      Operating Procedures states that a program office’s Accountable
                      Property Representative must report all stolen, lost or damaged
                      property to the Office of Security Operations.

                      Not until after our inquiries did CN report 11 of these items to the
                      DOE Office of Security Operations. Further, CN took the position



Page 3                                                               Details of Findings
                   that the remaining nine computers did not need to be similarly
                   reported because CN believed they were excessed by the field sites
                   to which the computers had been loaned. An Office of Security
                   official advised us that the circumstances represented by these nine
                   items is a “gray area” in the reporting requirements and that it is at
                   the discretion of the program office whether to report the items.

                   We noted that one of the computers reported to the Office of
                   Security Operations as missing was the one that the OIG located in
                   December 2006. As indicated above, this item was listed on an
                   RWO and then later returned to the CN inventory. We also noted
                   that although labeled as an unclassified computer when located by
                   the OIG in December 2006, CN informed the Office of Security
                   Operations that it had processed information at the Secret level.

                   We believe that because of the potential security implications and
                   the fact that CN does not have definitive information as to the
                   disposition of these items, it should report the circumstances
                   regarding the remaining nine computers to the Office of Security
                   Operations to determine whether an actual loss or theft had taken
                   place.

PROPERTY           We found that 57 computers were not included on CN’s property
NOT IN INVENTORY   inventory, as required by DOE’s Property Management Standards.
                   DOE Property Management Standards, found in 41 Code of
                   Federal Regulations Part 109, specifies that all sensitive property,
                   including computer property, be controlled and inventoried
                   annually.

                   During our initial inventory of CN computers, we physically
                   identified 45 that were not in CN’s inventory. We determined that
                   14 of these 45 computers were from the Pacific Northwest
                   National Laboratory (PNNL) and were sent to CN Headquarters at
                   various times during the past four years. During our attempts to
                   determine why the PNNL computers were not in CN’s inventory,
                   we also learned that there were 12 additional PNNL computers that
                   had been sent to CN Headquarters without having been entered
                   into CN’s inventory. We determined that these computers had
                   been transferred to another DOE program office during the past
                   two years without proper transfer or accountability documentation.
                   Additionally, we found paperwork that indicated another PNNL
                   computer may have been sent to CN Headquarters. CN informed
                   us that it had no evidence that the computer was ever received or
                   utilized by CN Headquarters. We were unable to resolve this
                   inconsistency.




Page 4                                                             Details of Findings
EXPIRED LOAN       We found that CN had expired loan agreements for 96
DOCUMENTATION      Headquarters computers that were located at CN field sites. We
                   determined that 96 of the 241 items that we were unable to locate
                   during our initial inventory were on loan to CN field sites. A loan
                   agreement, which is to be generated by the organization
                   transferring an item to another organization for a maximum of one
                   year, had been prepared for the 96 computers as required.
                   However, the loan agreements had expired in June and July 2006.
                   Following inquiries from the OIG, CN generated new loan
                   agreements for all but ten of these items. Regarding the remaining
                   ten computers, CN disposed of eight of the computers and it
                   advised us that new loan agreements are currently being prepared
                   for the last two.

COMPUTERS NOT      We found that labels indicating the classification level of
PROPERLY LABELED   individual computers were not affixed to 74 CN computers, as
                   required. Because CN maintains unclassified and classified
                   computers in its offices, CN’s Master Security Plan requires that
                   all hardware be properly labeled as processing Unclassified,
                   Confidential, or Secret information, as appropriate. Although not
                   mentioned in the CN Master Security Plan, CN said that Top
                   Secret computers also need to have labels.

RECOMMENDATIONS    Considering the sensitivity of the data regularly processed in CN
                   and the shortcomings identified above, we recommend that the
                   Director, Office of Intelligence and Counterintelligence ensure
                   that:

                   1. Internal controls over Counterintelligence Directorate
                      computer property are strengthened so that it is accounted for
                      in a timely manner;

                   2. All items previously reported to the Office of Management on
                      Retirement Work Orders are appropriately reported to the
                      Office of Security Operations; and

                   3. All computer equipment assigned to the Counterintelligence
                      Directorate is appropriately marked as processing Unclassified,
                      Confidential, Secret, or Top Secret information.




Page 5                                                           Recommendations
MANAGEMENT   In comments on our draft report, management agreed with the
COMMENTS     recommendations. Management’s comments are included in their
             entirety at Appendix C.

INSPECTOR    We found management’s comments to be responsive to our
COMMENTS     recommendations. However, because the comments did
             not provide an implementation plan with target dates for
             each recommendation, a management decision is required.




Page 6                             Management and Inspector Comments
Appendix A

SCOPE AND     This review included interviews with Federal and contractor
METHODOLOGY   officials with the DOE Office of Intelligence and
              Counterintelligence and the DOE Office of Management. We
              reviewed applicable policies and procedures pertaining to the
              management of computer property. We obtained CN’s inventory
              listing from the Office of Management, which conducted an
              inventory of all CN property in 2006. We used this inventory
              listing as a baseline to conduct our inventory and evaluate CN’s
              internal controls over computer property. We conducted a physical
              inventory of all CN computer property at Headquarters locations in
              Washington, DC, and Germantown, MD.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we examined performance measurement processes as
              they related to computer property.

              This inspection was conducted in accordance with “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                               Scope and Methodology
Appendix B

                              Prior Sensitive Property Reports

  •   “Excessing of Computers Used for Unclassified Controlled Information at the Idaho
      National Laboratory,” DOE/IG-0757, February 2007;

  •   “Destruction of Classified Hard Drives at Sandia National Laboratory-New Mexico,”
      DOE/IG-0735, August 2006;

  •   “Internal Controls for Excessing and Surplusing Unclassified Computers at Los Alamos
      National Laboratory,” DOE/IG-0734, July 2006;

  •   “Internal Controls Over Sensitive Property in the Office of Intelligence,” DOE/IG-0722,
      March 2006;

  •   “Control and Accountability of Emergency Communication Network Equipment,”
      DOE/IG-0663, September 2004;

  •   “Internal Controls Over the Accountability of Computers at Sandia National Laboratory,
      New Mexico,” DOE/IG-0660, August 2004;

  •   “Internal Controls Over Personal Computers at the Los Alamos National Laboratory,”
      DOE/IG-0656, August 2004;

  •   “Internal Controls Over Classified Computers and Classified Removable Media at the
      Lawrence Livermore National Laboratory,” DOE/IG-0628, December 2003;

  •   “Internal Controls Over Laptop and Desktop Computers at the Savannah River Site,”
      INS-L-03-09, July 2003;

  •   “Management of Sensitive Equipment at Selected Locations,” DOE/IG-0606, June 2003;

  •   “Inspection of Internal Controls Over Personal Computers at Los Alamos National
      Laboratory,” DOE/IG-0597, April 2003; and

  •   “Operations at Los Alamos National Laboratory,” DOE/IG-0584, January 2003.




Page 8                                                    Prior Sensitive Property Reports
Appendix C




Page 9       Management Comments
Appendix C




Page 10      Management Comments
                                                                    IG Report No. DOE/IG-0762

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland Smith at (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

   Your comments would be appreciated and can be provided on the Customer Response Form
                                  attached to the report.
